SERVICE LIST
No. 19-1231
Federal Communications Commission, et al. v. Prometheus Radio Project, et al.
No. 19-1241
National Association of Broadcasters, et al. v. Prometheus Radio Project, et al.
Helgi C. Walker
Gibson, Dunn & Crutcher LLP
1050 Connecticut Avenue, NW
Washington, DC 20036
202-955-8500
hwalker@gibsondunn.com
Counsel of Record for Petitioners in No. 19-1241
Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov
Counsel of Record for Petitioners in No. 19-1231
Ruthanne Mary Deutsch
Deutsch Hunt, PLLC
300 New Jersey Ave., NW, Suite 900
Washington, DC 20001
202-868-6915
rdeutsch@deutschhunt.com
Counsel of Record for Respondents Prometheus Radio Project; Media Mobilizing Project; Free
Press; Office of Communication, Inc. of the United Church of Christ, et al.
Jack N. Goodman
Law Offices of Jack N Goodman
1200 New Hampshire Ave, NW
Suite 600
Washington, DC 20036
202-776-2045
jack@jackngoodman.com
Counsel of Record for Respondent Independent Television Group

Dennis Lane
Stinson LLP
1775 Pennsylvania Ave., NW. Suite 800
Washington, DC 20006
202-572-9906
dennis.lane@stinson.com
Counsel of Record for Respondents Multicultural Media, Telecom and Internet Council and the
National Association of Black Owned Broadcasters, Inc.

